No. _________
________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________

CORDARRYL ANTONIO BETTON
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
____________________________________________

PETITON FOR WRIT OF CERTIORARI TO
THE COURT OF APPEALS
FOR THE FIFTH CIRCUIT
__________________________________________________
PETITION FOR WRIT OF CERTIORARI
_________________________
James Bailey Halliday, Esq.*

Counsel for Petitioner

The BridgeWater Commons
Suite 204 B
8927 Lorraine Road
Gulfport, MS 39503
(228) 861-5759
jhallidayesq@cableone.net
*Member Supreme Court Bar
And CJA Appointed Counsel
November 3, 2020

QUESTIONS PRESENTED
Is a Plea Agreement breached by the government when the prosecutor
announces the government’s agreed to recommendation to the sentencing court but
then sponsors argument and evidence contrary to its recommendation by
vigorously advocating a series of sentencing enhancements that were not properly
supported by the record?

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED

i

PARTIES TO THE PROCEEDING

ii

TABLE OF AUTHORITIES

iv

PETITION FOR A WRIT OF CERT………………………………………………...1
CITATION TO OPINIONS BELOW………………………………………………..1
JURISDICTION………………………………………………………………………..1
CONTITUTIONAL PROVISIONS INVOLVED…………………………………..2
STATUTORY PROVISION INVOLVED…………………………………………...2
STATEMENT OF THE CASE………………………………………………………..2
REASONS FOR GRANTING THE WRIT……………………………………….....3
1. THIS CASE REPRESENTS AN EXCELLENT VEHICLE FOR
THE COURT TO CLARIFY WHAT LEVEL OF SUPPORT IS
REQUIRED BY THE GOVERNMENT IN PRESENTING ITS
PLEA AGREEMENT TO THE SENTENCING COURT AND
WHETHER THE GOVERNMENT CAN BREACH A PLEA
AGREEMENT
BY
VIGOROUSLY
ADVOCATING
SENTENCING ENHANCEMENTS NOT SUPPORTED BY THE
RECORD.....................................……………………………………..3
CONCLUSION……………………………………………………………………….13
APPENDIX A:
Judgment of the Court of Appeals in

United States v. Cordarryl Antonio Betton, No. 20-60062
(Fifth Cir. Sept. 8, 2020)

APPENDIX B:
Judgment and Sentence of the District Court,
United States v. Cordarryl Antonio Betton, No. 1:19-cr-063
(S.D. MS January 15, 2020)
iii

TABLE OF AUTHORITIES
CASES:

PAGE

Henderson v. United States, 135 S. Ct. 1780 (2015)

9

Hentz v. Hargett, 71 F.3d 1169 (5th Cir. 1996)

6

Mabry v. Johnson, 467 U.S. 504 (1984)

11

Ricketts v. Adamson, 483 U.S. 1 (1988)

8

Santobello v. New York, 404 U.S. 257 (1971)

5

United States v. Ballis, 28 F.3d 1399 (5th Cir. 1994)

6

United States v. Barnes, 730 F.3d 456 (5th Cir. 2013)

5

United States v. Benchimol, 471 U.S. 453, 455 (1985)

3

United States v. Calabrese, 645 F.2d 1379 (10th Cir. 1981)

7

United States v. Castaneda, 162 F.3d 832 (5th Cir. 1998)

7

United States v. Davis, 393 F.3d 540 (5th Cir. 2004)

6

United States v. Fields, 72 F.3d 1200 (5th Cir. 1996)

10

United States v. Grandinetti, 564 F. 2d 723 (5th Cir. 1977)

3

United States v. Hagman, 740 F. 3d 1044 (5th Cir. 2014)

8

United States v. Harper, 643 F.3d 135 (5th Cir. 2011)

5

United States v. Hinojosa, 749 F.3d 407 (5th Cir. 2014)

5

United States v. Houston, 364 F.3d 243, 248 (5th Cir. 2004)

9

United States v. Juarez, 626 F.3d 246 (5th Cir. 2010)

8

United States v. Martin, 25 F.3d 211 (4th Cir. 1994)

7

United States v. Maya, 864 F.2d 1324 (7th Cir. 1988)

7

iv

United States v. McQueen, 108 F.3d 64 (4th Cir. 1997)

8

United States v. Meza, 701 F.3d 411 (5th Cir. 2012)

9

United States v. Long, 722 F.3d 257 (5th Cir. 2013)

5

United States v. Pizzolato, 655 F.3d 403 (5th Cir. 2011)

5

United States v. Purser, 747 F.3d 284(5th Cir. 2014)

6

United States v. Ready, 82 F.3d 551 (2d Cir. 1996)

8

United States v. Sharma, 703 F.3d 318 (5th Cir. 2012)

8

United States v. Wilson, 322 F.3d 353 (5th Cir.2003)

9

United States v. Valencia, 985 F.2d 764 (5th Cir.2000)

11

United States v. Williams, (citation omitted) (5th Cir. 2018)

9

Constitution:
U.S. Const. Amend. V

2

Statutory Provisions:
28 U.S.C. § 1254 (1)

1

21 U.S.C. § 841(a)(1)

1

v

PETITION FOR A WRIT OF CERT
Petitioner, Cordarryl Antonio Betton, respectfully prays that a writ of
certiorari issue to review the judgment of the United States Court of Appeals for the
Fifth Circuit entered in the above entitled proceeding on September 8, 2020.
CITATION TO OPINIONS BELOW
The opinion of the Court of Appeals for the Fifth Circuit has not been
reported and is reprinted in the appendix hereto, Appendix A, infra.
The judgment of the United States District Court for the Southern District of
Mississippi (Guirola, L,) has not been reported and is reprinted in the appendix
hereto, Appendix B, infra.
JURISDICTION
Petitioner Cordarryl Antonio Betton pleaded guilty to a violation of Title 21
U.S.C. § 841(a)(1). He was sentenced to One Hundred Thirty-five months
imprisonment by the Honorable Louis Guirola, United States District Judge for the
Southern District of Mississippi.
Mr. Betton timely appealed. A judgment dismissing his appeal was entered
by the United States Court of Appeals for the Fifth Circuit on September 8, 2020.
No petition for rehearing was sought. This Petition has been timely filed within
ninety (90) days of that Judgment. Sup. Ct. Rule 13.1. The jurisdiction of this Court
is invoked pursuant to 28 U.S.C. § 1254 (1).

1

CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the Due Process Clause of the Fifth Amendment
which provides in part: “…nor shall any person ….be deprived of life, liberty,
or property, without due process of law…”
STATUTORY PROVISION INVOLVED
21 U.S.C. § 841(a)(1)
STATEMENT OF THE CASE
On April 4, 2018, the Grand Jury sitting in and for the Southern District of
Mississippi returned a six count indictment charging Cordarryl Antonio Betton with
violations of 21 U.S.C. § 841(a)(1).
Mr. Betton entered a plea of guilty to count six of the indictment. On January 13, 2020,
the district court sentenced him to 135 months imprisonment, $ 3,000 fine, three years of
supervised release, and a $100 special assessment. Judgment was entered on January 15, 2020.
Timely Notice of Appeal was filed on January 23, 2020.
At sentencing, the government intentionally and vigorously sponsored
argument not adequately supported by the record to advocate a draconian guideline
enhancement based solely on alleged relevant conduct resulting in essentially
eviscerating its Plea Agreement and argued against the defendant qualifying for
‘safety valve’ and supported a dangerous weapon enhancement increase in the
sentencing guideline range not adequately supported by the record not meeting the
required preponderance standard.

2

REASONS FOR GRANTING THE WRIT
I.
THIS CASE REPRESENTS AN EXCELLENT VEHICLE FOR THE COURT TO
CLARIFY WHAT LEVEL OF SUPPORT IS REQUIRED BY THE GOVERNMENT
IN PRESENTING ITS PLEA AGREEMENT TO THE SENTENCING COURT AND
WHETHER THE GOVERNMENT CAN BREACH A PLEA AGREEMENT BY
VIGOROUSLY
ADVOCATING
SENTENCING
ENHANCEMENTS
NOT
SUPPORTED BY THE RECORD.
The Fifth Circuit has completely contravened any notion of fundamental
fairness in negotiations between a defendant and the government when
pronouncing that a prosecutor may promise one thing to induce a plea and then do
another at sentencing.
While this Honorable Court has expressly recognized that there is no set level
of enthusiasm the government must display when making a recommendation. See

United States v. Benchimol, 471 U.S. 453, 455 (1985). And even though the Fifth
Circuit has recognized that “personal reservations” expressed by the government’s
attorneys as to a plea agreement are a breach. United States v. Grandinetti, 564 F.
2d 723 (5th Cir. 1977). Certainly, the Fifth Circuit is mistaken that the government
can make its recommendation as to sentencing and then sponsor testimony that
contravenes and discounts that very recommendation just made.
The Plea Agreement contained an “appeal waiver” which usual bars direct
appeal. However, this appeal is not barred because this appeal is based on the fact
that the government breached its agreement with Mr. Betton when it presented
vigorous argument advocating sentencing enhancements to the Base Offense Level

3

not adequately supported in the record and thus not meeting the required standard
of a preponderance of the evidence resulting in a draconian increase in the
guidelines with an advocated sixteen (16) level increase resulting in a maximum
authorized sentence capped at ten (10) years. Without the vigorous avocation of the
government (when it was aware that the record did not adequately support its
argument), resulting in the Court adopting the government’s position (over
defendant’s numerous objections), Mr.

Betton’s sentence would have been

significantly lower than the one hundred thirty-five (135) months he received.
The district court’s sentence was unreasonable as the sentencing guideline
enhancements were not supported adequately by the record that did not meet the
required standard of a preponderance of the evidence resulting in a draconian
increase in the Base Offense Level resulting in a grossly increased guideline range
and loss of the protective provisions of ‘safety valve.’
The Plea Agreement and Plea Supplement created mutual obligations of the
government and Appellant. The Plea Supplement required that the government
recommend a lower fifty percent (50%) of the guideline range. However, the
government sponsored argument not supported by the record to convince the court
to accept a draconian increase (over the defendant’s numerous objections) in the
guideline range to maximize Mr. Betton’s sentence thus rendering its promises and
obligations within the Plea Agreement virtually meaningless. Without the
government’s advocation of an enhanced sentencing and consequential loss of
‘safety valve’, Mr. Betton’s guidelines would have been significantly lower a mere
4

70-87 versus a draconian 135-166 months for a first time offender. Almost double
the time of incarceration due to the government’s breach of its promises.
An alleged breach of a plea agreement may be raised on direct appeal despite
an express waiver of appellate rights. United States v. Purser, 747 F.3d 284, 289
(5th Cir. 2014) cert. denied, ___ U.S. ___, 135 S.Ct. 403 (2014); United States v.

Long, 722 F.3d 257, 260 n.2 (5th Cir. 2013), cert. denied, ___ U.S. ___, 134 S.Ct.
1514 (2014); United States v. Pizzolato, 655 F.3d 403, 409 (5th Cir. 2011), cert.
denied, ___ U.S. ___, 132 S.Ct. 1126 (2012).
To determine whether a plea agreement was breached a federal court must
"consider whether the government's conduct is consistent with the defendant's
reasonable understanding of the agreement." United States v. Hinojosa, 749 F.3d
407, 413 (5th Cir. 2014); United States v. Barnes, 730 F.3d 456, 457 (5th Cir.
2013).
Whether the government breached a plea agreement is a question of law that
the appellate court reviews de novo. Untied States v. Purser, 747 F. 3d 284, 292 (5th
Cir. 2014).
The Supreme Court has recognized that disposing of charges via plea
agreements is both "essential" and "highly desirable" in the criminal justice system.

Santobello v. New York, 404 U.S. 257, 261 (1971). But to realize the benefits of plea
deals, there must be "fairness in securing agreement between an accused and a
prosecutor." Id. A key safeguard of this fairness is that, when a defendant pleads
5

guilty in exchange for a promise from the prosecutor, the prosecutor must fulfill
that promise. Id. at 262; United States v. Harper, 643 F.3d 135, 139 (5th Cir.
2011) ("The Government must strictly adhere to the terms and conditions of its
promises in a plea agreement."). When alleging breach of a plea agreement, the
defendant must prove the facts underlying the alleged breach by a preponderance of
the evidence.

Harper, 643 F.3d at 139. But whether the government's conduct

amounts to a breach is a question of law for the court. Id. Assuming there was a
plea agreement, the court must decide "whether the Government's conduct was
consistent with the defendant's reasonable understanding of the agreement,"
construing the agreement strictly against the Government.

United States v.

Purser, 747 F.3d 284, 290 (5th Cir. 2014).
In the event of a breach, two remedies are available: specific performance of
the plea agreement or withdrawal of the plea. Santobello, 404 U.S. at 263; Harper,
643 F.3d at 139. The trial court has discretion to determine the proper remedy.
Plea agreements are interpreted under general principles of contract law. See

United States v. Ballis, 28 F.3d 1399, 1409 (5th Cir. 1994). Thus, if a defendant has
fulfilled his obligations under the plea agreement, the Government must perform its
reciprocal obligations. United States v. Davis, 393 F.3d 540, 546 (5th Cir. 2004).
Conversely, if a defendant "materially breaches" his plea agreement, the
Government may withdraw from the agreement and seek a new indictment on
charges previously dismissed. Hentz v. Hargett, 71 F.3d 1169, 1176 (5th Cir. 1996).
A breach is material when it deprives the non-breaching party of the benefit of the
6

bargain. United States v. Castaneda, 162 F.3d 832, 837 (5th Cir. 1998). Thus, the
materiality of a breach is directly proportional to the extent the non-breaching
party is deprived of the expected benefits. See Id. (" The less the non-breaching
party is deprived of the expected benefits, the less material the breach."). The
concept of material breach is clarified by comparison with the converse concept of
substantial performance: "if a party's nonperformance . . . is innocent, does not
thwart the purpose of the bargain, and is wholly dwarfed by that party's
performance, the breaching party has substantially performed under the contract,
and the non-breaching party is not entitled to rescission." Id. at 837-38 (alteration
in original) (internal quotation marks omitted). The Government bears the burden
of proving by a preponderance of the evidence both that the defendant breached the
plea agreement and that the breach was material. Id. at 837.

Although a plea

agreement is a contract, " [t]he analogy to contract law doctrines is not
determinative in the area of plea negotiation." United States v. Calabrese, 645 F.2d
1379, 1390 (10th Cir. 1981). This follows from the recognition that a plea agreement
is " a contract in which special due process concerns for fairness and the adequacy of
procedural safeguards obtain." United States v. Maya, 864 F.2d 1324, 1329 (7th Cir.
1988); see also United States v. Martin, 25 F.3d 211, 216 (4th Cir. 1994) (" [P]lea
agreements between the government and a defendant are unique and call for
special due process considerations." ); Calabrese, 645 F.2d at 1390 (" Because
important due process rights are involved, plea negotiations must accord a
defendant requisite fairness and be attended by adequate safeguards to insure the

7

defendant what is reasonably due [in] the circumstances." ) (alteration in original)
(internal quotation marks omitted); United States v. Ready, 82 F.3d 551, 558 (2d
Cir. 1996) (recognizing that although " [p]lea agreements are construed according
to contract law principles . . . . [D]ifferent types of contracts are subjected to
different interpretative rules and background understandings." ) (first alteration in
original) (citations omitted) (internal quotation marks omitted). Against this
background, the Court assesses a claim for breach of plea agreement " with greater
scrutiny than in a commercial contract." United States v. McQueen, 108 F.3d 64, 66
(4th Cir. 1997); Ricketts v. Adamson, 483 U.S. 1, 16, 107 S.Ct. 2680, 97 L.Ed.2d 1
(1988).
As explained above, the proper inquiry in determining whether a plea
bargain has been breached is whether the prosecution's conduct comports with the
defendant's reasonable understanding of the plea agreement. Hinojosa, 749 F.3d at
413; United States v. Sharma, 703 F.3d 318, 326-27 (5th Cir. 2012), cert. denied,
___ U.S. ___, 134 S.Ct. 78 (2013).
While “The sentencing court is permitted to make common-sense
inferences from the circumstantial evidence." United States v. Juarez, 626 F.3d 246
(5th Cir., 2010); “The government must prove sentencing enhancements by a
preponderance of the evidence.” Id. at 251. United States v. Hagman, 740 F.3d 1044
(5th Cir., 2014). “[T]he preponderance standard goes to how convincing the evidence
in favor of a fact must be in comparison with the evidence against it before that fact

8

may be found.” United States v. Wilson, 322 F.3d 353, 361 (5th Cir.2003). If the
evidence appears to be equally balanced, or the Court cannot say upon which side it
weighs heavier, the Court must resolve the question in favor of the defendant
because the burden of proof on this issue remains with the government. See Id.;

United States v. Hagman, 740 F.3d 1044 (5th Cir. 2014).
To show constructive possession, the government must prove that the
Defendant, though lacking physical custody, "still ha[d] the power and intent to
exercise control over the object." Henderson v. United States, 135 S. Ct. 1780, 1784
(2015); The court uses a "common sense, fact-specific approach" to determine
constructive possession in these kinds of cases. United States v. Meza, 701 F.3d 411,
419 (5th Cir. 2012). United States v. Williams (citation omitted) (5th Cir. 2018).
In a case similar to Mr. Betton’s now before the Court, (wherein a number
of guns were found in a vehicle, in a residence, on other persons, under the control
of other persons, claimed by other persons and where Mr. Betton denied in an
official Gulfport police interview any knowledge of the guns), the Fifth Circuit
discussed these similar circumstances as follows: “Williams did not mention the
Ruger during his post-arrest interview with police despite openly admitting to
knowing about and handling the two other guns found at the scene of the arrest.
This could suggest either Williams was unaware of the third firearm found at the
scene or that he knew it was stolen and would substantially increase his sentence.
See United States v. Houston, 364 F.3d 243, 248 (5th Cir. 2004) (finding no
constructive possession under U.S.S.G. § 2K2.1 when "[t]he gun was not in plain

9

view, [someone other than the defendant] disclosed the location of the gun, and [the
defendant] expressed to the officers his belief that the room contained two, rather
than three, firearms."). His silence could cut either way and thus is not strong
enough evidence to infer knowledge. The limited visibility of the gun, the lack of
information about where the ammunition was found, and the fact that Williams was
only a guest in the apartment mean the evidence of knowledge is too thin to say the
government proved possession by a preponderance of evidence. See, e.g., Sealy, 661
F. App'x at 282 (vacating a sentencing guideline determination of constructive
possession when nothing in the record suggested the defendant had carried,
handled, or even knew about the firearms found in the same apartment).” United

States v. Williams (citation omitted) (5th Cir. 2018). To prove actual possession, the
Government must demonstrate that Mr. Betton "exercised direct physical control
over them." Id. To prove constructive possession, the Government must show that
Mr.

Betton exercised ownership, dominion, or control over the firearms or the

premises in which they were discovered. See Id.; see also United States v. Houston,
364 F.3d 243, 248-49 (5th Cir. 2004) (finding no constructive possession of a firearm
because there was no evidence that defendant knew of the pistol discovered in his
wife's purse). Even jointly occupying a space (which is more than what Mr. Betton
did here) is insufficient to show constructive possession. United States v. Fields, 72
F.3d 1200, 1212 (5th Cir. 1996). United States v. Sealy (citation omitted) (5th Cir.
2016).

10

The Plea Agreement and Supplement with

Betton contained an appeal

waiver. However, this Court has clearly stated that “[An] alleged breach of a plea
agreement may be raised despite a waiver provision.” United States v. Purser, 747
F.3d 284, 289 (5th Cir. 2014).

If the court accepts a defendant's guilty plea

entered in reliance on a plea agreement or other promise that is then not honored
by the Government, the defendant's due process rights are violated. Mabry v.

Johnson, 467 U.S. 504, 507, 104 S.Ct. 2543, 81 L.Ed.2d 437 (1984). Because the
government breached its agreement with Betton or otherwise did not honor its
promises to him, Betton is not bound by the appeal waiver and thus is entitled to
pursue his present appeal.
The government intentionally and vigorously sponsored argument not
supported by the record to support a draconian guideline enhancement based solely
on alleged relevant conduct resulting in basically (for all practical purposes)
eviscerating Mr. Betton’s Plea Agreement as its recommendation of the lower fifty
percent (50%) became meaningless.
This is a clear breach of what Betton expected the government to do. It
clearly prejudiced him.

When prosecutors make comments contrary to the

recommendations according to their Plea Agreements during sentencing reversal is
required. United States v. Valencia, 985 F.2d 758, 760 (5th Cir. 1993). The interest
of justice and standards of good faith in negotiating plea bargains require reversal
where a plea bargain is breached. Santobello v. New York, 404 U.S. at 262-263. A
lesser standard would permit the government to make a plea bargain attractive to a
11

defendant, subsequently violate that agreement, and then argue harmless error
thereby defrauding the defendant.
Betton entered into a guilty plea as part of a plea agreement and therefore
the government must strictly adhere to the terms and conditions of its promises, so
that it can be said to be part of the inducement or consideration, such promise must
be fulfilled.

In determining whether the terms of a plea agreement have been

violated, the court must determine whether the government’s conduct is consistent
with the defendant’s reasonable understanding of the agreement. If it is determined
that a plea agreement has been breached, specific enforcement of the agreement is
called for and the defendant must be sentenced by a different judge.
The government was bound by the material promises it made to Betton as
part of the Plea Agreement that induced him to plead guilty. Regarding breaches of
plea agreements by the government, this court has stated, “If a breach has in fact
occurred, the sentence must be vacated without regard to whether the judge was
influenced by the government’s actions.” United States v. Sailing, 205 F.3d 764,
766-767 (5th Cir. 2000).
The government cannot promise one thing and then by do another. The
perception of fair dealing for the accused at all stages of criminal proceedings is
critical to the integrity of our system of justice. Plea Agreements between
defendants and the government are an integral part of resolving criminal cases. To
the extent these agreements are breached and otherwise not lived up to, the
criminal justice system is compromised. Certainly blatant breaches and as here
12

more subtle failures to live up to the government’s end of the bargain seriously
affect the fairness, integrity and public reputation of judicial proceedings.
Therefore, this Honorable Court should grant the Petitioner’s petition herein.

CONCLUSION
The government cannot promise one thing and then by do another. The
perception of fair dealing for the accused at all stages of criminal proceedings is
critical to the integrity of our system of justice. Plea Agreements between
defendants and the government are an integral part of resolving criminal cases. To
the extent these agreements are breached and otherwise not lived up to, the
criminal justice system is compromised. Certainly blatant breaches, and as here
more subtle failures, to live up to the government’s end of the bargain seriously
affect the fairness, integrity and public reputation of judicial proceedings
For the foregoing reasons, Petitioner prays that a Writ of Certiorari issue to
review the judgment of the United States Court of Appeals for the Fifth Circuit.
Respectfully Submitted, this the 3rd of November, 2020.
Petitioner Cordarryl Antonio Betton

s/ James Bailey Halliday

JAMES BAILEY HALLIDAY, Sr.
CJA Panel Attorney
Attorney for Petitioner
MS Bar No 2924

13

James Bailey Halliday, Sr.
Attorney and Counselor at Law
The BridgeWater Commons Ste. 204-B
8927 Lorraine Road
Gulfport, MS 39503
(228) 861-5759
jhallidayesq@cableone.net

14

